                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AIOOI0005                                                                      Page 1 of 1



                  A complainant l alleges that she was forced to participate as human subjects in the thesis
          project of a graduate student2 supervised by her colleague,3 and that the project did not have
          proper IRB approval. She further alleges that her colleague and the department head,4 along with
          university administration officials have covered up the fact that the project was completed and
          the thesis approved without the proper IRB approvals, and that post-project IRB sanctions were
          improperly derailed by university adminis~ration.

          The complainant states that OHRP has already declined to take action in this matter. No NSF
          connection can be found to any of th~ potential subjects in this case.

                    Accordingly, this case is closed.




          4




NSF OIG Form 2 (J 1/02)
